Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL




       HIPAA READINESS:
   ADMINISTRATIVE SIMPLIFICATION
  FOR M EDICARE PART A PROVIDERS




                   JANET REHNQUIST
                     Inspector General

                      MAY 2003
                    OEI-09-02-00421
                Office of Inspector General

                                   http://oig.hhs.gov
The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The OIG's Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the department.

Office of Evaluation and Inspections

The OIG's Office of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections) that focus on issues of concern to the department, the
Congress, and the public. The findings and recommendations contained in the inspections
reports generate rapid, accurate, and up-to-date information on the efficiency, vulnerability, and
effectiveness of departmental programs.

Office of Investigations

The OIG's Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of OI lead to criminal convictions,
administrative sanctions, or civil monetary penalties. The OI also oversees state Medicaid fraud
control units, which investigate and prosecute fraud and patient abuse in the Medicaid program.

Office of Counsel to the Inspector General

The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
in OIG's internal operations. The OCIG imposes program exclusions and civil monetary
penalties on health care providers and litigates those actions within the department. The OCIG
also represents OIG in the global settlement of cases arising under the Civil False Claims Ac t,
develops and monitors corporate integrity agreements, develops model compliance plans,
renders advisory opinions on OIG sanctions to the health care community, and issues fraud
alerts and other industry guidance.
                         EXECUTIVE                         SUMMARY

OBJECTIVE

          To determine if Medicare Part A providers expect to comply with the electronic data
          transaction standards and code sets mandated by the Health Insurance Portability and
          Accountability Act (HIPAA) by October 2003.



BACKGROUND

          The purpose of Title II of HIPAA is to improve the efficiency of the health care system by
          establishing standards to facilitate the electronic transmission of data between providers and
          payers. Electronic data interchange can eliminate the inefficiencies associated with handling
          paper documents. It reduces administrative costs and improves overall data quality for
          transactions, such as health care payments and coordination of benefits.1

          In accordance with the provisions of Title II of HIPAA, the Secretary of Health and Human
          Services has promulgated regulations mandating the use of specific standards for eight different
          types of electronic transactions and medical code sets. Covered entities that filed an extension
          must implement the standards by October 16, 2003.

          This report is based on the results of a mail survey of a stratified random sample of Medicare
          Part A providers that submitted claims to Medicare fiscal intermediaries between July 1, 2001
          and June 30, 2002.



FINDINGS

Ninety-six percent of Medicare Part A providers have moderate to high
expectations that they will be compliant with HIPAA standards by October 2003

          Medicare Part A providers are making significant progress in meeting the HIPAA deadline.
          Ninety-two percent of Medicare Part A providers are developing an implementation schedule
          to meet the deadline, while approximately one-half are developing sequencing strategies and
          contingency plans in the event their system is not


          1
           65 FR 50312 (August 17, 2000).



HIPAA Readiness: Medicare Part A Providers                 1                                 OEI-09-02-00421
          fully in compliance by the deadline. Approximately 84 percent are using systems vendors as
          part of their compliance strategy. Only 18 percent have conducted a cost/benefit analysis for
          implementing the electronic standards and code sets.

External barriers may affect compliance

          Approximately one-third of the providers who listed potential barriers to compliance were
          concerned that their trading partners could affect their ability to meet the compliance deadline.



CONCLUSION

          Overall, the Medicare Part A providers are making steady progress toward meeting the
          compliance target of October 16, 2003, for implementing the HIPAA electronic transaction
          standards and code sets. Providers are, however, concerned that their trading partners may
          not be fully compliant, and this would affect their own ability to implement the electronic
          standards.




HIPAA Readiness: Medicare Part A Providers                 2                                  OEI-09-02-00421
                            TABLE                         OF             CONTENTS
                                                                                                                                      PAGE


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4


FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8


          Anticipated compliance . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8


          External barriers . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11


APPENDIX A: HIPAA-related terms and acronyms . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12


APPENDIX B: Confidence intervals for statistics in report . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13


ACKNOWLEDGMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16





HIPAA Readiness: Medicare Part A Providers                                   3                                              OEI-09-02-00421
                                      INTRODUCTION

OBJECTIVE

          To determine if Medicare Part A providers expect to comply with the electronic data
          transaction standards and code sets mandated by the Health Insurance Portability and
          Accountability Act (HIPAA) by October 2003.



BACKGROUND

          Congress instituted significant reforms to the health care industry with the passage of HIPAA.
          Title I of HIPAA assures the availability and portability of health care insurance coverage, while
          Title II creates a regulatory framework to improve the efficiency of the health care system by
          establishing standards that will facilitate the electronic transmission of data between providers
          and payers. (See Appendix A for a glossary of HIPAA-related terms and acronyms.) The
          goal is to create a seamless transfer of data with limited manual intervention.

Administrative Simplification

          Under Title II, Subtitle F (Administrative Simplification), the Secretary of Health and Human
          Services has the authority to: (1) mandate the use of standards for the electronic exchange of
          health care data; (2) specify what medical and administrative code sets should be used; (3)
          require the use of national identification systems; and (4) specify the types of measures required
          to protect the security and privacy of personally identified health care information.

Electronic Transactions and Code Sets

          Electronic data interchange (EDI) is the electronic transfer of information in a standard format
          between trading partners. Compared to paper transactions, EDI substantially reduces handling
          and processing time by reducing the administrative burden, lowering operating costs, and
          improving overall data quality.2




          2
           65 FR 50312 (August 17, 2000).



HIPAA Readiness: Medicare Part A Providers                 4                                 OEI-09-02-00421
          Transactions are the exchange of information between two parties to carry out financial or

          administrative activities related to health care. The standards for electronic transmission of each

          of the transactions are codified in the Code of Federal Regulations

          (45 CFR Parts 160 and 162). The rule provides standards for eight types of electronic

          transactions: 


               <    1.   Health care claims or equivalent encounter information,

               <    2.   Health care payments and remittance advice,

               <    3.   Coordination of benefits,

               <    4.   Health care claim status,

               <    5.   Enrollment and disenrollment in a health plan,

               <    6.   Eligibility for a health plan,

               <    7.   Health plan premium payments, and

               <    8.   Referral certification and authorization.


          The rule also contains requirements concerning the use of standardized code sets, such as
          tables of terms, medical concepts, medical diagnostic codes, or medical procedure codes used
          to encode data elements in the transaction. The code set includes the codes and their
          descriptors.3 The following code sets have been adopted:

               <	 International Classification of Diseases-9-Clinical Modifications (ICD-9-CM), volumes
                  1, 2, and 3;
               <	 Combination of Health Care Financing Administration Common Procedure Coding
                  System (HCPCS) and Current Procedural Terminology-4 (CPT-4) for physicians and
                  other health services;
               < HCPCS for all other items;

               < National Drug Codes (NDC) or HCPCS for prescription drugs; and

               < Common Treatment for Dentists-2 (CTD-2) for dental services.


          Covered entities, defined as providers, clearinghouses, and health plans that use the electronic
          exchange of health information as part of their business, will be required to adopt these
          standards. The compliance date for this rule (45 CFR Parts 160 and 162) was originally
          October 16, 2002. The Administrative Simplification Compliance Act, signed into law on
          December 27, 2001, extends the compliance date by 1 year to October 16, 2003. The
          extension applies only to those covered entities that filed an extension with the Centers for
          Medicare & Medicaid Services (CMS) by October 16, 2002. For these entities, October
          2003 is the compliance date. Since the implementation date is several months away, CMS has
          not yet developed standards to measure compliance.


          3
           45 CFR § 160.1002



HIPAA Readiness: Medicare Part A Providers                   5                                OEI-09-02-00421
METHODOLOGY

          This is one of a series of HIPAA readiness surveys. We used a mail survey as the primary tool
          to conduct this evaluation. We mailed surveys during the week of November 4, 2002, and
          received responses between November 26, 2002, and
          March 24, 2003.

          We surveyed a stratified random sample of Medicare Part A providers who submitted claims to
          Medicare fiscal intermediaries between July 1, 2001, and June 30, 2002. Stratification allowed
          us to test for differences in compliance strategies, contingencies, and barriers among providers,
          based on the number of claims they submitted to Medicare. We divided the providers into
          three strata:


                                    Number of        Size of         Sample       Number of
                    Stratum
                                     Claims         Population        Size        responses

                                1 to 1,500
                      1                                  36,746             50             50
                                claims

                                1,501 to 17,500
                                                           7,048            50             50
                      2         claims

                                more than
                                                           2,315            50             50
                      3         17,500 claims

                              TOTAL                      46,109           150             150

          We randomly ordered the population of providers within each stratum. We then selected the
          first 50 providers in each stratum that were covered by HIPAA, were still in business, and were
          not under investigation by the Office of Inspector General’s Office of Investigations. Our
          response rate was 100 percent. Of the 150 providers, approximately 57 percent are hospitals,
          16 percent are skilled nursing facilities, 15 percent are home health agencies and hospices, and
          12 percent are outpatient facilities, including rural and community health clinics. Surveys were
          completed by administrators, financial officers, compliance officers, and clinic managers. We
          weighted the responses according to each stratum’s representation in the population.

          We surveyed the providers about their level of readiness in four broad areas:

               1.    Assessment and awareness activities;
               2.    Impediments or current obstacles to achieving compliance;
               3.    Compliance strategies, such as sequencing and testing plans; and
               4.    Contingency planning.


HIPAA Readiness: Medicare Part A Providers                  6                               OEI-09-02-00421
     We did not independently verify the accuracy of the responses.

     The inspection was conducted in accordance with the Quality Standards for Inspections issued
     by the President’s Council on Integrity and Efficiency.




HIPAA Readiness: Medicare Part A Providers              7                             OEI-09-02-00421
                                             FINDINGS

          We conducted a mail survey of a stratified random sample of Medicare Part A providers.
          Overall, the Medicare Part A providers are making progress toward meeting the compliance
          target of October 16, 2003, for implementing the HIPAA electronic transaction standards and
          code sets, and 96 percent expect to be in compliance by the deadline.

Ninety-six percent of Medicare Part A providers have
moderate to high expectations that they will be compliant with
HIPAA standards by October 2003

          Almost all Medicare Part A providers submitted a compliance extension form. As a result, they
          have until October 16, 2003, to implement the electronic standards and code sets. As of the
          time of our survey, 74 percent of the providers were ready to implement the HIPAA electronic
          standards, and 96 percent indicated that they had a moderate to high level of satisfaction that
          they expected to meet the October deadline.

          Providers who did not believe they would meet the compliance deadline (approximately
          4 percent of all providers), indicated they were in the process of identifying the steps necessary
          to implement the standards. At the time of the survey, they were receiving information from
          their professional associations to assist them in developing implementation strategies.

Providers have developed internal and external testing strategies

          While fewer than 30 percent of the providers had begun any testing, 90 percent will have a

          testing strategy. Most of their testing strategies include internal and external data interfaces. 

          Approximately one-fourth had begun to test transactions, as of 

          November 2002. However, slightly more than 44 percent had received any notices from fiscal

          intermediaries or carriers regarding coordination of electronic transaction testing. 


Providers are developing implementation strategies to achieve compliance

          When asked which strategy the provider was using to implement the HIPAA standards,
          providers most frequently selected the following four:

               1. We will have internal staff plan, develop, and implement the standards.
               2. We will have technical systems consultants work with staff and assist us in the process.




HIPAA Readiness: Medicare Part A Providers                 8                                  OEI-09-02-00421
               3. We will have a technical systems consultant or vendor take full responsibility for
               planning, developing, and implementing the new standards.
               4. We will purchase components of a new system or additions to our current system from
               a selected vendor to meet the standards.

          Ninety-two percent of the providers are developing an implementation schedule to meet the
          deadline. Sixty-four percent indicated they have purchased or will be purchasing new software,
          hardware, systems components, or a combination thereof. Approximately 56 percent of
          providers are developing a sequencing strategy which will prioritize transactions by order and
          date.

          Providers are using expert resources outside their organization to help implement the HIPAA
          standards and code sets. Eighty-one percent stated that they had turned to their professional
          associations for information to assist them in developing implementation strategies.
          Approximately 84 percent of all providers are using systems vendors as part of their
          compliance strategy.

          Although more than 60 percent of the providers are purchasing new software or system
          components to meet the HIPAA standards, fewer than 20 percent have conducted any type of
          cost benefit analysis for implementing the electronic standards and code sets.

          As part of our assessment, we reviewed the responses from seven questions regarding
          implementation strategies among the survey strata. We found no statistical differences in the
          strategies with the exception of the use of clearinghouses to process some or all of the provider
          claims. Use of a clearinghouse varies by strata, with 49 percent of stratum 1 providers using a
          clearinghouse, 63 percent of stratum 2 providers using a clearinghouse, and 96 percent of
          stratum 3 providers using a clearinghouse.

          Although 96 percent of the providers expect to meet the compliance deadline, 56 percent are
          developing contingency plans in the event their system is not fully compliant by October 2003.
          We found no statistical difference between the strata regarding their development of
          contingency plans.



External barriers may affect compliance

          When asked to list as many as three barriers to compliance, 60 percent of the providers listed
          one or more. The most common were:

               <    Trading partners will not be ready. 

               <    Vendors will not be ready.

               <    We have inadequate staffing, training, and technical resources.



HIPAA Readiness: Medicare Part A Providers                  9                                OEI-09-02-00421
               <    We need more time to implement and may experience testing delays.

          Approximately one-third of those who listed any barriers identified their trading partners
          (specifically third party payers, fiscal intermediaries, carriers, and/or CMS) as potential barriers
          to compliance.

          Providers who did not believe they would meet the compliance deadline expressed similar
          concerns. They cited their trading partners as a potential barrier, as well as inadequate
          resources.




HIPAA Readiness: Medicare Part A Providers                  10                                   OEI-09-02-00421
                                             CONCLUSION

          Overall, the Medicare Part A providers are making progress toward meeting the compliance
          target of October 16, 2003, for implementing the HIPAA electronic transaction standards and
          code sets. Providers are, however, concerned that their trading partners may not be fully
          compliant, and this would affect their own ability to implement the electronic standards.




HIPAA Readiness: Medicare Part A Providers              11                                OEI-09-02-00421
                                                                                 APPENDIX A


            Glossary of Selected HIPAA-related Terms and Acronyms

Administrative Simplification: the use of mandated standards for the electronic exchange of health
care data and specific measures to protect the security and privacy of personally identifiable health care
information.

Clearinghouse: an entity that processes information received from one entity in a nonstandard format
into a standard transaction, or receives a standard transaction and converts it to a nonstandard format for
a receiving entity.

Code Set: the tables of terms, medical concepts, diagnostic codes, or procedure codes and descriptions
used to encode information in a transaction.

Contingency Plan: a plan developed by covered entities to provide an alternative for submitting or
receiving HIPAA electronic transactions after October 2003, in the event that the covered entity’s system
conversion fails or is incomplete.

Covered Entity: any health plan, health care clearinghouse, or a health care provider who transmits any
health information in electronic form in connection with a transaction covered by the HIPAA standards.

Electronic Data Interchange (EDI): any electronic exchange of formatted data.

EDI Translator: a software tool for accepting an EDI transmission and converting the data into another
format, or for converting a non-EDI file into an EDI format for transmission.

Medicare Part A Provider: hospital, critical access hospital, skilled nursing facility, comprehensive
outpatient rehabilitation facility, home health agency, or hospice.

Sequencing: a process plan developed by a covered entity to implement each of the transaction
standards in a logical sequence.

Standard Transactions: the exchange of information between two parties that complies with the
requirements established under HIPAA.

Trading Partner: an external entity, such as a customer, with whom the covered entity does business.
A trading partner can be so designated for some purposes and considered a business associate for other
purposes.

Translator: See EDI translator.

Vendor: software and/or hardware entities that provide HIPAA compliant services, consulting, and/or
products to covered entities. Vendors may be business associates or trading partners.



HIPAA Readiness: Medicare Part A Providers                  12                                    OEI-09-02-00421
                                                                                  APPENDIX B



                  Confidence Intervals for Key Survey Questions


The following tables show the point estimates and 95 percent confidence intervals for selected statistics.

Compliance/ Testing
                                                                             Point        95 Percent
              Survey Question                         Response
                                                                            Estimate   Confidence Interval
 Has your organization submitted a           All respondents who
 compliance extension form under the         answered “yes”
                                                                             96.5%       92.1% - 100.0%
 Administrative Simplification
 Compliance Act?
 How ready do you believe your               All respondents who
 organization is, at this point, to          answered "5," “4," or “3" on
                                                                             73.8%        63.8% - 83.7%
 implement the HIPAA electronic              a 1 to 5 (for levels of
 transaction standards?                      satisfaction)
 How confident are you that your             All respondents who
 organization will meet the October 2003,    answered "5," “4," or “3" on
                                                                             96.1%       91.7% - 100.0%
 target for implementing the electronic      a 1 to 5 (for levels of
 transactions?                               satisfaction)
 Has the organization begun any testing      All respondents who
 of its applications of the HIPAA            answered "yes"                  27.5%        17.3% - 37.7%
 electronic transactions?
 Does your organization have an overall      All respondents who
 strategy for testing its HIPAA              answered “completed,”           89.5%        82.2% - 96.8%
 compliant data systems?                     “underway,” or “plan to”
 Does the testing strategy include           All respondents who
 internal and external data interfaces?      answered “completed.”
                                                                             84.3%        75.6% - 92.9%
                                             “underway,” or “plan to”
 Has your organization received any          All respondents who
 notices from the fiscal intermediaries or   answered "yes"
 carriers regarding coordination of                                          44.2%        32.7% - 55.7%
 testing of HIPAA electronic
 transactions?




HIPAA Readiness: Medicare Part A Providers                       13                            OEI-09-02-00421
Strategies/Contingency Planning
                                                                                Point        95 Percent
              Survey Question                            Response
                                                                               Estimate   Confidence Interval
  Is your organization currently using          All respondents who
  clearinghouse(s) or other organizations to   answered "yes"
                                                                                53.6%        42.1% - 65.0%
  process any part of its HIPAA electronic
  transactions?
  Is your organization currently working        All respondents who
 with a systems vendor(s) to implement the     answered "completed,”            84.0%       75.4% -92.7%
 HIPAA electronic standards?                   “underway,” or “plan to”
  Has your organization used its                All respondents who
professional association(s) for information    answered "completed,”
                                                                                81.2%        72.0% - 90.4%
to assist you in developing a transaction      “underway,” or “plan to”
 compliance strategy?
  Has your organization created a schedule      All respondents who
  to implement the changes in its data         answered "completed,”                         86.2% - 98.5%
                                                                                92.4%
 system to comply with the HIPAA               “underway,” or “plan to”
electronic transaction standards deadline?
  Has your organization purchased new           All respondents who
  software, hardware, or system                answered "completed,”
                                                                                64.0%        53.0% - 75.1%
component(s) to meet transaction               “underway,” or “plan to”
compliance requirements
  Have you, your contracted vendor(s), or       All respondents who
   any consultants conducted a cost/benefit    answered “yes”
                                                                                18.0%        7.8% - 28.2%
    analysis for implementing the HIPAA
   electronic transaction standards?
  Has your organization developed a             All respondents who
 contingency plan in the event its system is   answered "completed,”
                                                                                55.9%        44.4% - 67.3%
   not compliant by October 2003?              “underway,” or “plan to”



Barriers
                                                                                Point        95 Percent
              Survey Question                            Response
                                                                               Estimate   Confidence Interval

 How satisfied are you with the resources       All respondents who
 your organization is committing to meet        answered "5," “4," or “3" on
                                                                                96.8%        93.4% - 100.0%
 the HIPAA electronic transaction               a 1 to 5 (for levels of
 standards?                                     satisfaction)




HIPAA Readiness: Medicare Part A Providers                         14                             OEI-09-02-00421
          We compared responses among the three strata of providers, stratum1 (less than 

          1,500 claims), stratum 2 (1,501 to 17,500 claims) and stratum 3 (more than 17,500 claims) for

          the 7 following questions, which we thought might show significant differences among strata. 

          Only the first question is statistically significant at the

          95 percent confidence level. Using the Bonferroni method for multiple comparisons, a

          comparison was statistically significant if the p-value was less than 0.05 divided by 7 or

          approximately 0.007.


Compliance/ Testing
                                                                                                    Chi-Square Test
                                                                               Point
             Survey Question                      Measurement                                 Degrees of
                                                                              Estimate                         P-value
                                                                                               Freedom
  How confident are you that your              All respondents who
                                                                            96.0 stratum 1
 organization will meet the October            answered “5," “4," or
                                                                            96.0 stratum 2
2003, target for implementing the             “3" on a 1 to 5 (for                                2             0.774
                                                                            98.0 stratum 3
electronic transactions?                     levels of satisfaction)
                                               All respondents who          28.0 stratum 1
 Has your organization begun any
                                               answered “completed,”        26.0 stratum 2
 testing of its applications of HIPPA                                                             2             0.902
                                               “underway,” or “plan         24.0 stratum 3
electronic transactions?
                                              to”



Strategies/Contingency planning
                                                                                                    Chi-Square Test
                                                                               Point
             Survey Question                      Measurement                                 Degrees of
                                                                              Estimate                         P-value
                                                                                               Freedom
 Is your organization currently using         All respondents who           49.0 stratum 1
 clearinghouse(s) or other                    answered "yes"                63.5 stratum 2
                                                                                                  2             <.001
organizations to process any part of its                                    96.0 stratum 3
HIPAA electronic transactions?
 Has your organization identified the         All respondents who           94.0 stratum 1
 steps necessary to implement the             answered "yes"                 98.0 stratum 2
                                                                                                  2             0.132
HIPAA electronic standards?                                                 100.0 stratum 3
 Does your organization have an               All respondents who           84.0 stratum 1
ongoing analysis process to identify          answered “completed,”         90.0 stratum 2
                                                                                                  2             0.021
 potential gaps in its existing system?       “underway,” or “plan          98.0 stratum 3
                                             to”
  Does your organization have a               All respondents who           55.3 stratum1
 sequencing (prioritization) strategy for     answered "yes"                51.1 stratum 2
 implementing the HIPAA electronic                                          75.0 stratum 3        2             0.028
transactions?
  Has your organization developed a           All respondents who
 contingency plan in the event the            answered “completed,”         53.1 stratum 1
 system is not compliant by October           “underway,” or “plan          62.5 stratum 2        2             0.011
2003?                                        to”                            80.0 stratum 3




HIPAA Readiness: Medicare Part A Providers                             15                                    OEI-09-02-00421
                            ACKNOWLEDGMENTS

          This report was prepared under the direction of Paul A. Gottlober, Regional Inspector General
          for Evaluation and Inspections, and Deborah W. Harvey, Assistant Regional Inspector General
          for Evaluation and Inspections, in San Francisco. Other principal Office of Evaluation and
          Inspections staff who contributed include:

          Timothy Brady, Project Leader                       Linda Frisch, Program Specialist

          Silvia Chin, Program Analyst

          Robert Gibbons, Program Analyst

          Cheryl Dotts, Program Assistant





                              For information or copies of this report, please contact

                                        the Office of Inspector General’s

                                     Public Affairs office at (202) 619-1343.


               Reports are also available on the World Wide Web at our home page address:

                                          http://www.oig.hhs.gov/




HIPAA Readiness: Medicare Part A Providers                    16                              OEI-09-02-00421
